CERTIFICATE OF SERVICE
No. 19-410
IN RE RICHARD J. FIELDS
Richard J. Fields
Petitioner(s)
v.
Diana Palmeri et al.
Respondent(s)
STATE OF MASSACHUSETTS )
) SS.:
COCJNTY OF NORFOLK
Being duly sworn, I depose and say under penalty of perjury:
1.. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the RICHARD
J. FIELDS REPLY BRIEF OF PETITIONER, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Jules Martin Haas
Jules Martin Haas Esq.
845 Third Avenue, Suite 1400
New York, NY 10022
(212) 355-2575
attorney.haas845@gmail.com
Counsel for Diana Palmeri

Albert V. Messina
Novick & Associates
202 East Main Street
Huntington, NY 11743
(212) 897-0500
amessina@novicklawgroup.com
Counsel for Respondents

November 8, 2019
SCP Tracking: Fields-2830 Pitkin Avenue-Cover Tan

RECEIVED
NOV 13 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

